               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




         21st Century Post Office:
     Non-Postal Products and Services

               Management Advisory




                                              July 16, 2012

Report Number DA-MA-12-005
                                                                             July 16, 2012

                                                  21st Century Post Office: Non-Postal
                                                                Products and Services

                                                          Report Number DA-MA-12-005



BACKGROUND:                                    and those offered by foreign postal
This is the third in a series of reports       systems. Examples of non-postal
addressing the impact of the 21st              products and services include expanded
Century Post Office on U.S. Postal             government services, public Internet
Service Customer Services Operations           access, notary services, check cashing,
and Retail. Our objective was to assess        and warehousing. Finally, the Postal
the opportunity for the Postal Service to      Service needs to address barriers to
provide non-postal products and                offering non-postal products and
services at retail facilities. Non-postal      services and ensure that non-postal
products and services are those not            products and services are strategically
directly related to the delivery of letters,   placed at retail locations with sufficient
printed matter, or mailable packages.          foot traffic to help ensure success.

WHAT THE OIG FOUND:                            WHAT THE OIG RECOMMENDED:
The Postal Service could increase the          We recommended the Postal Service
value of Post Office retail facilities and     develop a strategy to identify, evaluate
address community needs by evaluating          and offer the most promising non-postal
and offering non-postal products and           products and services, including how to
services. New non-postal products are          overcome identified barriers, when
not currently authorized, but pending          legislation permits.
legislation could provide additional
opportunities. The Postal Service should       Link to review the entire report
consider offering non-postal products
and services suggested by stakeholders
July 16, 2012

MEMORANDUM FOR:            KELLY M. SIGMON
                           VICE PRESIDENT, CHANNEL ACCESS

                           DEAN J. GRANHOLM
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                           OPERATIONS




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Advisory Report – 21st Century Post Office:
                           Non-Postal Products and Services
                           (Report Number DA-MA-12-005)

This report presents the results of our audit of the 21st Century Post Office: Non-Postal
Products and Services (Project Number 11YG039DA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Facilities, Environmental and Sustainability, or me at 703-248-2100.

Attachments

cc: Nagisa M. Manabe
    Megan J. Brennan
    Corporate Audit and Response Management
  st
21 Century Post Office:                                                                                           DA-MA-12-005
 Non-Postal Products and Services




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Potential Non-Postal Products and Services ................................................................... 2

   Non-Postal Products and Services Suggested in Proposed Legislation ...................... 2

   Non-Postal Products and Services Suggested by the Office of Inspector General...... 2

   Non-Postal Products and Services Suggested by Postmasters .................................. 3

   Non-Postal Products and Services Offered by Foreign Postal Systems ...................... 4

Barriers to Offering Non-Postal Products and Services................................................... 7

Strategic Placement of Non-Postal Products and Services Based on Foot Traffic .......... 7

Recommendation ............................................................................................................ 8

Management’s Comments .............................................................................................. 8

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Management’s Comments ........................................................................ 13
    st
21 Century Post Office:                                                                         DA-MA-12-005
 Non-Postal Products and Services



Introduction

This is the third in a series of U.S. Postal Service Office of Inspector General (OIG)
reports1 addressing the 21st Century Post Office (Project Number 11YG039DA000). Our
objective was to assess opportunities for the U.S. Postal Service to provide non-postal
products and services at retail facilities. Non-postal products and services are those not
directly related to the delivery of letters, printed matter, or mailable packages. This
self-initiated review addresses strategic risk associated with the 21st Century Post
Office. See Appendix A for additional information about this audit.

Because of declining mail volume2 and revenue, the Postal Service has been operating
at a deficit. To address budget issues and to increase profit, the Postal Service
proposed, in its 5-Year Business Plan,3 to eliminate Saturday delivery, recalculate
retirement prefunding obligations, and downsize the workforce. Most of the Postal
Service’s efforts to eliminate budget deficits focus on cost-cutting initiatives. Adding
non-postal products and services to those currently offered could increase revenue and
enhance the Postal Service brand.

Conclusion

The Postal Service could increase the value of Post Office retail facilities and address
community needs by evaluating and offering non-postal products and services. The
Postal Accountability and Enhancement Act (PAEA) of 20064 prohibits the Postal
Service from offering new non-postal products or services. Under PAEA, the Postal
Service can only provide the non-postal services it offered as of January 1, 2006.
However, pending legislation could provide additional opportunities. The Postal Service
should consider offering non-postal products and services suggested by stakeholders
and those offered by foreign postal systems to generate revenue. Before implementing
non-postal products and services, the Postal Service needs to ensure a business case
exists, address barriers to offering non-postal products and services, and ensure that
they are strategically placed at retail locations with sufficient foot traffic to help ensure
success.




1        st
  21 Century Post Office: Aligning with the National Broadband Infrastructure Initiative (Report Number
DA-MA-12-002, dated January 23, 2012) and 21st Century Post Office: Opportunities to Share Excess Resources
(Report Number DA-MA-12-003, dated February 9, 2012).
2
  Mail volume declined from 213 to 168 billion pieces (or 21 percent) from 2006 to 2011.
3
  Plan to Profitability, 5-Year Business Plan, dated February 16, 2012.
4
  Public Law 109-435, Section 102(c) (2).
                                                           1
    st
21 Century Post Office:                                                                             DA-MA-12-005
 Non-Postal Products and Services



Potential Non-Postal Products and Services

In order to remain viable and provide services to the public where there is a need (once
legislation permits), the Postal Service should consider offering non-postal products and
services, such as those suggested by stakeholders. As a part of this consideration,
officials would have to initially determine whether the product or service is profitable. As
summarized below, proposed legislation and prior OIG reports have recommended
several non-postal products and services. In addition, postmasters we surveyed
suggested products and services the Postal Service could offer in communities to help
their Post Office sustain a viable presence. In addition, foreign posts offer a wide array
of products and services. Stakeholders have suggested that the Postal Service offer
products and services similar to those that foreign posts offer.

Non-Postal Products and Services Suggested in Proposed Legislation

In 2009, the Postal Service asked Congress5 to change the law so that it could offer
non-postal products and services to generate additional revenue. Several bills 6 have
been introduced in Congress to change current laws and allow the Postal Service to sell
new non-postal products and services. In addition to removing prohibitions for selling
non-postal products and services, these bills suggest new products and services the
Postal Service could offer in order to generate revenue. These suggestions include:

        Public Internet access services.
        Notary services.
        Advertising at Postal Service facilities and on Postal Service vehicles.
        Banking services such as check cashing.
        Facility leasing and warehousing services.

The 21st Century Postal Service Act (S. 1789), which passed in the Senate on April 26,
2012, does not specifically suggest ideas for new non-postal products and services the
Postal Service could offer. Instead, S. 1789 proposes introducing a commission to
provide strategic guidance and foster innovative thinking to address challenges facing
the Postal Service.

Non-Postal Products and Services Suggested by the Office of Inspector General

The OIG has offered suggestions for products and services in prior audits and white
papers. These reports suggested the Postal Service:
5
  November 5, 2009 testimony of then-Postal Service president of Mailing and Shipping Services before the House of
Representatives’ Committee on Oversight and Government Reform, Subcommittee on Federal Workforce, Postal
Service, and the District of Columbia.
6
  Legislative bills introduced include Senator (Sen.) Joseph Lieberman’s 21st Century Postal Service Act (S. 1789),
Sen. Thomas Carper’s POST of 2011 (S. 1010), Representative (Rep.) Darrell Issa’s Postal Reform Act of 2011
(House of Representatives (H.R.) 2309), Rep. Peter DeFazio’s Postal Service Protection Act (H.R. 3591),
Sen. Bernard Sander’s Postal Service Protection Act of 2011 (S. 1853), Rep. Maxine Waters’ Protecting Post Offices
                                                                                     st
Act of 2011 (H.R. 3916), Rep. Gerald Connolly’s Reform the Postal Service for the 21 Century Act (H.R.1262), and
Rep. Elijah Cummings’ Innovate to Deliver Act of 2011 (H.R. 2967).


                                                         2
    st
21 Century Post Office:                                                                            DA-MA-12-005
 Non-Postal Products and Services



        Expand government services at retail sites on behalf of federal agencies to facilitate
         E-Gov initiatives7 in addition to passport services and selective service registration.
         Expanding government services would increase public access to these services and
         provide additional revenue to the Postal Service.8

        Assist the National Broadband Infrastructure initiative through partnerships with
         commercial Internet service providers (ISPs). Specifically, the Postal Service could
         provide facilities and land for expanding the broadband infrastructure. Such ventures
         could make Internet services available and more affordable for the underserved and
         increase revenue for the Postal Service.9

        Provide electronic currency transactions to underserved markets in the form of
         prepaid cards. Most electronic payment tools require users to have a bank account
         or credit card. Otherwise, payment options for underbanked individuals, such as
         low-income families, new immigrants, the unemployed, and the non-creditworthy
         would generally include only cash and checks.10

Non-Postal Products and Services Suggested by Postmasters

We surveyed postmasters11 for suggestions of products and services the Postal Service
could offer to help post offices sustain a viable presence in communities. The ten most
popular products and services suggested by postmasters are summarized in Table 1.




7
  E-Gov uses Internet-based information technology to enhance citizens’ access to government information and
services.
8
  21st Century Post Office: Opportunities to Share Excess Resources (Report Number DA-MA-12-003, dated
February 9, 2012).
9   st
  21 Century Post Office: Aligning with the National Broadband Infrastructure Initiative (Report Number
DA-MA-12-002, dated January 23, 2012).
10
   Digital Currency: Opportunities for the Postal Service (Report Number RARC-WP-12-001, dated October 3, 2011).
11                                                 th
   Ninety postmasters surveyed attended the 108 Annual National League of Postmasters convention held
July 31-August 3, 2011, and represented all Postal Service areas (Capital Metro, Eastern, Great Lakes, Northeast,
Pacific, Southern, and Western).


                                                        3
     st
21 Century Post Office:                                                                                   DA-MA-12-005
 Non-Postal Products and Services


                 Table 1. Products and Services Suggested by Postmasters

                                                                                    Number of
                                 Products and Services
                                                                                    Responses
                    Fax services                                                       25
                    Photocopy services                                                 23
                    Notary services                                                    22
                    Miscellaneous government services                                  18
                    Passport services12                                                 8
                    Greeting cards12                                                    8
                    Internet or wireless fidelity                                       6
                    Banking/automated teller machine (ATM)                              4
                    Community support/center                                            3
                    Gift cards, job services, public telephones,
                                                                                           213
                    and money transfers
                                                  th
                  Source: OIG survey at the 108 Annual National League of Postmasters convention, July 31-
                  August 3, 2011.

One postmaster suggested the Postal Service stop giving away supplies and charge a
small fee for boxes.14

Non-Postal Products and Services Offered by Foreign Postal Systems

In a 2011 report,15 the U.S. Government Accountability Office (GAO) provided the
Postal Service with lessons learned from foreign posts’ strategies to generate revenue
when faced with declining mail volume. Among other efforts, foreign posts introduced
products and services not directly related to Postal Service activities to increase
revenue. The GAO reported that foreign posts were generally successful in offering
commercial products — such as financial, investment, and travel services — along with
toys, iPods, and calendars at their retail locations.16

Many foreign posts offer banking, insurance, communication, and similar services. One
bill17 before Congress suggests the Postal Service consider foreign posts’ efforts in
combating the effects of declining mail volume by offering similar products and services
and physical delivery of email correspondence to individuals who do not have Internet
access.



12
   These services are not offered at all post offices.
13
   Each item received two responses.
14
   In fiscal year (FY) 2010, the U.S. Postal Service spent more than $158 million in manufacturing, shipping, and
                           ®                  ®
fulfillment of Express Mail and Priority Mail packaging supplies.
15
   U.S. Postal Service Foreign Posts’ Strategies Could Inform U.S. Postal Service’s Efforts to Modernize (Report
Number GAO-11-282, dated February 16, 2011).
16
   The OIG recognized in its prior work that not all non-postal opportunities that foreign posts explore correlate with
the Postal Service’s infrastructure (Postal Service Revenue: Structure, Facts, and Future Possibilities) (Report
Number RARC-WP-12-002, dated October 6, 2011).
17
   Postal Service Protection Act of 2011 (S. 1853).


                                                            4
     st
21 Century Post Office:                                                                                DA-MA-12-005
 Non-Postal Products and Services


Many foreign posts have been granted the ability to manage their operations like a
business. This enables them to offer products and services, such as banking and
insurance in their home countries. Foreign posts — such as Poste Italiane (Italy),
Correios de Portugal (Portugal), Royal Mail (United Kingdom), Swiss Post (Switzerland),
and Japan Post (Japan) — offer products and services, including savings accounts,
insurance, and financial services, such as bill payment, in addition to other services.
Table 2 illustrates some of the products and services that foreign posts offer.

                   Table 2. Products and Service Offered by Foreign Posts

               Products and           Swiss        Poste         Japan                       Correios de
                                                                              Royal Mail
                  Services            Post        Italiane        Post                        Portugal
                       18
          Insurance                     X             X            X               X              X
          Bank/savings
                                         X            X             X              X               X
          accounts
          Utility bill payment           X            X                            X               X
                  19
          Loans                          X            X                            X
                           20
          E-Gov services                                                           X
          Prepaid cards                  X            X                            X
          Fax services                                X
          Mobile phone
                                         X            X
          payments
          Retirement planning            X
          E-Bill payment                 X            X
          National lottery
                                                                                   X
          tickets
          Foreign and local
                                         X            X                            X               X
          money orders
          Home phone service
                                                                                   X
          and broadband
          Local travel tickets                                                     X
                            21
          Online shopping                X                                                         X
          Sources: Swiss Post, Poste Italiane, Japan Post, Royal Mail, and Correios de Portugal websites.

SingPost (Singapore) offers a wide array of products and services that include payment,
financial, telecommunication, insurance, government, and storage. Table 3 documents
the products and services SingPost offers.




18
   Insurance includes life, home, and car.
19
   Loans include mortgages, credit cards, and personal loans.
20
   E-Gov services include passport and driver’s license applications.
21
   Online shopping for non-postal items, such as electronics, gifts, books, and music.


                                                           5
        st
     21 Century Post Office:                                                                                 DA-MA-12-005
      Non-Postal Products and Services


                           Table 3. SingPost Products and Services Available

     Financial         Government            Payment and         Telecommunication           Storage              Remittance
     Services            Services          Other Services              Services              Services              Services
 Offers financial    Offers traffic and   Offers basic         Offers prepaid mobile,   Offers long- and      Offers worldwide
 planning            parking fine         banking              telephone, and           short-term storage    money transfer
 solutions.          payment service.     transactions,        broadband cards.         service for           options to more
                                          such as                                       personal and          than 200
                                          depositing and                                business use.         countries.
                                          withdrawing cash
                                          with an ATM
                                          card.
 Offers personal     Offers dog           Offers bill          Accepts                  Sells packing
 loans.              license renewal      payment service      telecommunications       materials, such as
                     service.             to various           services on behalf of    bubble wrap,
                                          sources (utility,    providers.               boxes, and tape.
                                          medical bills,
                                          credit cards, and
                                          loans).
 Offers home         Accepts payment      Offers airline       Offers mobile payment    Facilitates
 loans.              for income and       ticket purchase.     and transfer of money.   transportation
                     property taxes.                                                    needs via a third
                                                                                        party.
 Offers              Accepts payment      Makes donations                               Offers storage
 multipurpose        on behalf of the     on behalf of                                  billing and
 loans.              court system for     customers, to                                 payment options
                     obligations          charities, such as                            via the Internet.
                     resulting from       the National
                     personal             Kidney
                     bankruptcy and       Foundation and
                     company              the Salvation
                     liquidation.         Army.
 Offers assistance   Issues Singapore     Top up ez-link
 with credit lines   identification       transport card.
 for liquidity and   cards.
 cash flow
 management.
                     Provides             Drops off and
                     passport             collects
                     services.            International
                                          Business
                                          Machine laptops
                                          for repair,
                                          update, and sale.
                                          Pays education
                                          fees, such as
                                          tuition and
                                          entrance exam
                                          fees.
                                          Offers foreign
                                          and local money
                                          and postal
                                          orders.
Source: Singapore Post website.




                                                                6
     st
21 Century Post Office:                                                                                DA-MA-12-005
 Non-Postal Products and Services


Barriers to Offering Non-Postal Products and Services

The Postal Service faces many barriers to offering non-postal products and services.
Besides legislative restrictions, these barriers include stakeholder opposition, the lack of
adequate foot traffic, and current wage levels at retail units. The Postal Service could
offer non-postal products and services if it would address these barriers.

         Many of the foreign posts’ innovations and initiatives were possible, at least in part,
          because of actions taken by their governments and regulators. Some posts have
          been allowed to offer a broad array of products and services to meet their
          customers’ needs and interests. It should be noted that many of the actions taken by
          foreign posts took time to produce results and gain stakeholder support.

         Stakeholder opposition to the Postal Service offering non-postal products and
          services has impacted such offerings in the past. Many believe the Postal Service
          should not offer products and services that compete with products and services
          already offered by the private sector. However, the Postal Service was successful in
          receiving the Postal Regulatory Commission’s (PRC’s) approval of gift cards as a
          postal product. The Postal Service received PRC approval by establishing that
          selling gift cards at Postal Service retail facilities provides convenient access to a
          product often sent as a gift through the mail in greeting cards and could be
          considered a form of correspondence.22 Establishing a nexus between gift cards and
          the use of the mail provided a basis for classifying gift cards as a potential postal
          product.

         Higher than market benefit and wage levels make it difficult for the Postal Service to
          compete with commercial entities, but providing additional products and services
          could help the Postal Service cover costs at retail units.

         The Postal Service believes that customer foot traffic is too low to effectively offer
          non-postal products and services at retail locations. As noted in prior OIG reports,
          non-postal products and services — such as offering government services on behalf
          of federal agencies, offering broadband Internet service, and providing electronic
          currency transactions to underserved markets — could increase foot traffic.

Strategic Placement of Non-Postal Products and Services Based on Foot Traffic

A strong customer base is needed to profit from selling non-postal products and
services at retail units. Between FYs 2010 to 2011, Postal Service foot traffic decreased
about 13 percent.23 In addition, based on its own research, the Postal Service
acknowledges that retail units do not have sufficient foot traffic to profitably offer
non-postal products and services, such as banking and insurance.


22
  PRC Docket Number MT2011-2, Market Test of Experimental Product - Gift Cards, dated April 28, 2011.
23
  Based on the Postal Service’s total customer visit accounts for FYs 2010 and 2011, visits 1.07 billion and
935.7 million, respectively, from Postal Facts 2012.


                                                          7
  st
21 Century Post Office:                                                        DA-MA-12-005
 Non-Postal Products and Services


We acknowledge that there is not a universal solution for offering non-postal products
and services throughout the Postal Service’s entire retail network and that not all retail
units are candidates for offering such products and services. While the amount of foot
traffic at a retail unit may not be sufficient to profitably offer banking and insurance
products, that same unit may be able to viably offer other products, such as fax and
photocopy services. The Postal Service needs to evaluate each new product and
service it intends to offer to ensure that it will be profitable. The Postal Service also
needs to determine how much foot traffic is necessary at a retail location in order for the
product to be successful. Strategically placing products and services at retail locations
with sufficient foot traffic would increase the likelihood of success and would be
instrumental in allowing the Postal Service to generate much needed revenue.

Recommendation

We recommend the vice president, Channel Access, in coordination with the vice
president, Delivery and Post Office Operations:

1. Develop a strategy to identify, evaluate, and offer the most promising non-postal
   products and services, including how to overcome identified barriers, when
   legislation permits.

Management’s Comments

Management agreed with the recommendation. Specifically, management identified key
steps to follow to identify and evaluate possible non-postal products when legislation
permits. These efforts will involve a cross-functional approach, including product
development, finance, legal, and information technology. See Appendix B for
management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation in the
report.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                             8
     st
21 Century Post Office:                                                                              DA-MA-12-005
 Non-Postal Products and Services



                                Appendix A: Additional Information

Background

To increase revenue, many foreign postal systems are offering commercial products —
such as financial, investment, and travel services — along with toys, iPods, and
calendars. Previously the Postal Service offered a variety of non-postal products, such
as photocopying and prepaid phone cards. At that time, laws allowed the Postal Service
to, ―provide, establish, change, or abolish special non-postal or similar services.‖24

The PAEA repealed the Postal Service's authority to offer "non-postal services" and
prohibited offering any new non-postal services. Prior to passage of the PAEA, the
Postal Service had virtually limitless discretion to offer non-postal services. Former Title
39 U.S.C. 404(a)(6) granted the Postal Service the specific power to provide, establish,
change, or abolish special non-postal or similar services. Under PAEA, the Postal
Service can only provide the non-postal services it offered as of January 1, 2006. After
that date, the Postal Service can only offer — with PRC approval — non-postal products
and services that include delivery of letters, printed matter, or mailable packages,
including acceptance, collection, sorting, and transportation or other ancillary functions.
The PRC also considers whether there is a public need for the service, whether the
private sector can meet the public need, and whether the product would be a
competitive or non-competitive postal service before granting approval. 25

Objective, Scope, and Methodology

Our objective was to assess the opportunity for the Postal Service to provide non-postal
products and services at retail facilities. To answer our objective, we:

         Researched current laws related to selling non-postal products and services.

         Examined foreign postal system websites and reviewed prior audit reports and white
          papers to determine the products and services other countries offer.

         Analyzed pending legislative bills and proposals to determine whether support for
          selling non-postal products exists with lawmakers.




24
  Title 39 U.S.C. § 404(a) (6) in effect before the PAEA of 2006.
25
  The Postal Service is authorized under current legislation to conduct market tests of experimental postal products
with PRC approval. This provision was included in PAEA to allow the Postal Service to create innovative postal
products and services in order to adapt to changing customer needs and changing information and communication
technologies. Since the passage of the PAEA, the Postal Service has filed, and the PRC has approved, seven market
tests of experimental products including: Collaborative Logistics, Samples Co-op Box, Alternative Postage Payment
Method for Greeting Cards, Marketing Mail Made Easy (now called Every Door Direct Mail Retail), Mail Works
Guarantee, First-Class Tracer, and gift cards.


                                                         9
    st
21 Century Post Office:                                                         DA-MA-12-005
 Non-Postal Products and Services


        Surveyed 90 postmasters attending the 108th Annual National League of
         Postmasters convention to determine which products or services could be offered at
         post offices to sustain a viable presence in communities.

We conducted this review from July 2011 through July 2012 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on June 5, 2012, and included their comments where appropriate.

We did not rely on computer-generated data to support the audit findings.




                                               10
      st
    21 Century Post Office:                                                    DA-MA-12-005
     Non-Postal Products and Services



    Prior Audit Coverage

                                              Final
                                             Report
     Report Title           Report Number      Date                   Report Results
The USPS Global            RARC-WP-12-006   2/13/2012   This paper introduced the concept of a
Card: A Conceptual                                      Postal Service-offered smart card that
Analysis of a Smart                                     could provide consumers with an
Card Platform                                           access key to current and future postal
                                                        services and other government and
                                                        commercial applications. The card could
                                                        be enhanced over time to also provide
                                                        consumers with an increased level of
                                                        security and privacy in daily
                                                        transactions, information management,
                                                        and data storage wholly unmatched by
                                                        today’s alternatives. Beyond security
                                                        and privacy improvements, the smart
                                                        card design would allow the card to act
                                                        as a convenient portable platform for
                                                        multiple application solutions including
                                                        identification, authentication, and data
                                                        storage. The paper did not offer any
                                                        recommendations.
21st Century Post            DA-MA-12-003   2/9/2012    The report found that the Postal Service
Office: Opportunities to                                would benefit from sharing its resources
Share Excess                                            with other government entities, while
Resources                                               generating revenue and reducing costs.
                                                        Excess floor space and potential labor
                                                        resources could be used to perform
                                                        transactions with other government
                                                        agencies, which could expand the reach
                                                        of government departments to citizens.
                                                        Management partially agreed with our
                                                        recommendation. Specifically,
                                                        management agreed to develop and
                                                        implement a strategy to share surplus
                                                        resources with federal agencies.
                                                        However, they did not agree with part of
                                                        the recommendation to share resources
                                                        with state and municipal agencies.




                                             11
         st
       21 Century Post Office:                                                     DA-MA-12-005
        Non-Postal Products and Services


                                                 Final
                                                Report
      Report Title             Report Number      Date                   Report Results
  st
21 Century Post                DA-MA-12-002    1/23/2012   The report examined the viability of a
Office: Aligning with                                      partnership between the Postal Service
the National                                               and commercial ISPs. Such an
Broadband                                                  agreement would lower the cost of entry
Infrastructure Initiative                                  for ISPs into sparsely populated areas.
                                                           A public/private venture would bring the
                                                           Post Office’s value cost curve down and
                                                           make ISP operations more affordable.
                                                           The Postal Service disagreed with our
                                                           recommendations, citing a need for
                                                           significant funding to further
                                                           infrastructure development and
                                                           incentivize ISPs in rural markets.
U.S. Postal Service              GAO-11-282    2/16/2011   The report examined initiatives foreign
Foreign Posts’                                             posts have implemented to improve
Strategies Could                                           mail delivery and retail networks in
Inform U.S. Postal                                         addition to modernization strategies that
Service’s Efforts to                                       could be useful in improving the Postal
Modernize                                                  Service’s financial condition and
                                                           customer service. The Postal Service
                                                           generally agreed with the GAO’s
                                                           findings.
U.S. Postal Service              GAO-10-455    4/12/2010   The GAO assessed the viability of the
Strategies and Options                                     Postal Service’s business model and
to Facilitate Progress                                     strategies to address challenges to its
toward Financial                                           business model and recommended
Viability                                                  actions Congress and the Postal
                                                           Service must take to facilitate progress
                                                           toward financial viability. The Postal
                                                           Service generally agreed with the
                                                           GAO’s findings.




                                                12
  st
21 Century Post Office:                                       DA-MA-12-005
 Non-Postal Products and Services


                          Appendix B: Management’s Comments




                                         13
  st
21 Century Post Office:                  DA-MA-12-005
 Non-Postal Products and Services




                                    14
